HHS/OIG-Audit--"Audit of Administrative Costs Claimed Under Parts A and B of the Health Insurance for the Aged and Disabled Program--Blue Cross and Blue Shield of Minnesota, (A-05-01-00037)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed Under Parts A and B of the Health
Insurance for the Aged and Disabled Program--Blue Cross and Blue Shield of Minnesota,"
(A-05-01-00037)
May 31, 2001
Complete Text of Report is available in PDF format
(1.27 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit of Blue Cross and Blue Shield of Minnesota (BCBSM) covered Medicare
Part A and Part B administrative costs of $44.6 million claimed during the period
October 1, 1994 through July 31, 1999. The audit also included the contractor's
termination costs claim submitted to HCFA in July 2000. We recommended a financial
adjustment of $1,037,090 because (i) costs for employee retention exceeded the
HCFA approved amount by $932,052 and (ii) termination costs of $105,038 were
inappropriately included on the Final Administrative Cost Proposal instead of
on a separate voucher. BCBSM officials concurred with the recommendation. In
addition, we recommended set aside for HCFA adjudication $173,853 of termination
costs which consisted of severance payments to employees who retired rather
than accept positions offered with the replacement contractor. The BCBSM did
not concur with this recommendation.